Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    LIMITED OVERSIGHT OF
    HOME HEALTH AGENCY
        OASIS DATA




                    Daniel R. Levinson
                     Inspector General

                      February 2012
                     OEI-01-10-00460
EXECUTIVE SUMMARY: LIMITED OVERSIGHT OF HOME HEALH
AGENCY OASIS DATA: OEI-01-10-00460

WHY WE DID THIS STUDY

Outcome and Assessment Information Set (OASIS) data are the basis for home health
agency (HHA) payment, quality measures, and consumer information on the Home
Health Compare Web site. Timely and accurate submission of these data is vital for
HHAs’ efforts to improve quality and for consumers researching HHAs. In addition,
State survey staff use OASIS data in the survey and certification of HHAs, which ensures
that HHAs are meeting all Conditions of Participation required by Medicare.

HOW WE DID THIS STUDY

We surveyed all States regarding their responsibilities for OASIS data. We conducted
structured interviews with Centers for Medicare & Medicaid Services (CMS) staff. We also
obtained all home health Part A claims and OASIS records for 2009 to determine which
submitted claims were missing a required OASIS record. We obtained a list of all HHAs
that CMS penalized from 2007 to 2010 by assessing the 2-percent payment reduction.

WHAT WE FOUND

HHAs did not meet all Federal reporting requirements. They did not submit required
OASIS data for 392,180 (6 percent) of claims in 2009, which represented over $1 billion
in Medicare payments. Only 199 HHAs were penalized by CMS with the 2-percent
payment reduction from 2007 through 2010. Furthermore, HHAs submitted 15 percent
of OASIS datasets late. Some States provided training and technical support to HHAs
and almost all restricted access to OASIS data. States conducted limited data analysis
and review of the accuracy of OASIS data. Finally, CMS did not ensure the accuracy or
completeness of OASIS data and did not validate States’ processes for monitoring
submitted OASIS data.

WHAT WE RECOMMEND

Our report made three recommendations to CMS. First, identify all HHAs that failed to
submit OASIS data and apply the 2-percent payment reduction to them. Second, establish
and implement enforcement actions for HHAs that submit OASIS data after the 30-day
deadline. Third, develop clear guidelines that delineate expectations for States regarding
timely and accurate OASIS data. CMS concurred with our first recommendation and did
not concur with our second or third recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................6
           Home health agencies did not meet all Federal reporting
           requirements for OASIS data ...........................................................6
           States met some, but not all, OASIS requirements ..........................8
           CMS did not ensure the accuracy or completeness of OASIS
           data ...................................................................................................9
Recommendations ......................................................................................10
           Agency Comments and Office of Inspector General Response..... 11
Appendix A ................................................................................................13
           Agency Comments .........................................................................13
Acknowledgments......................................................................................18
             OBJECTIVES
             1. To determine the extent to which home health agencies (HHA) meet
                  Federal reporting requirements for the Outcome and Assessment
                  Information Set (OASIS) data.
             2. To determine the extent to which States meet Federal reporting
                  requirements for OASIS data.
             3. To determine the extent to which the Centers for Medicare & Medicaid
                  Services (CMS) oversees the accuracy and completeness of OASIS
                  data submitted by HHAs.

             BACKGROUND
             Medicare beneficiaries who are generally confined to their homes may be
             eligible to receive certain medical services at home. 1 Home health
             services include part-time or intermittent skilled nursing care, as well as
             other skilled care services, such as physical, occupational, and speech
             therapy; medical social work; and home health aide services. 2
             OASIS
             When a beneficiary begins home health care, and at regular intervals
             thereafter, a registered nurse or rehabilitation therapist conducts a
             comprehensive assessment of the beneficiary using the OASIS, a
             standardized dataset. 3 HHAs use the OASIS to assess patients’ continuing
             need for home care and to identify patients’ medical, nursing,
             rehabilitative, social, and discharge-planning needs.

             Medicare reimbursement and consumer information presented on CMS’s
             Web site depend on accurate and timely submission of OASIS data. In
             addition, State survey staff use OASIS data in surveying and certifying
             HHAs to ensure that HHAs are meeting all Conditions of Participation
             (CoP) required by Medicare. Finally, OASIS data will play a crucial role
             as CMS explores pay-for-performance systems that offer incentive
             payments to Medicare HHAs for maintaining high levels of quality care or
             for making significant improvements in the quality of their services.
             Home Health Prospective Payment System
             Under the prospective payment system (PPS), which CMS implemented in
             October 2000, HHAs receive a standardized payment for each 60-day
             episode of home health care that a Medicare beneficiary receives. The


             1 Social Security Act, §§ 1835(a)(2)(A) and 1861(m).
             2 CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 7, § 40.
             3 42 CFR §§ 484.55(b) and (d)(1).



OEI-01-10-00460         Limited Oversight of Home Health Agency OASIS Data                 1
             payment covers skilled nursing care, home health aide visits, therapy,
             medical social services, and routine and nonroutine medical supplies
             provided by HHAs. 4 HHAs use the OASIS to determine the payment
             code for each 60-day episode of care they submit for reimbursement.
             Home Health Quality Measures
             CMS uses OASIS data as the basis for its Outcome-Based Quality
             Improvement effort. CMS developed 41 quality measures to evaluate
             patients’ improvement or stabilization in activities of daily living and
             health status. Quality measures include improvement or stabilization in
             bathing, toileting, speech, and language; in cognitive functioning; in
             management of oral medications; and in bowel and urinary continence.
             CMS reports 12 of these quality measures on its Home Health Compare
             Web site, which informs patients and their families about HHAs.
             Overseeing Medicare HHAs
             Through agreements between CMS and the States, State survey agencies
             (State agencies) survey HHAs to certify their compliance with Medicare
             CoPs. 5 State agencies conduct initial onsite certification surveys before
             HHAs enroll as Medicare providers, and the States conduct recertification
             surveys at least every 36 months. 6 State agencies have the authority to
             cite HHAs for failure to meet the standards specified in the CoPs. State
             agencies review OASIS data to prepare for surveys of individual HHAs
             and to audit the accuracy of OASIS data. 7 The CMS OASIS Guidance
             Manual instructs HHAs on how to verify OASIS accuracy through clinical
             record and data entry audits. As part of the survey, CMS expects State
             agencies to examine how HHAs monitor the accuracy of OASIS data; to
             review clinical records; and to observe a home visit, if possible. 8
             Transmitting OASIS Data
             CMS requires HHAs to submit OASIS data to their States for all Medicare
             beneficiaries they serve. 9 State agencies are responsible for collecting and
             managing OASIS data. The CMS OASIS submission system, housed in
             State agencies, automatically validates transmitted OASIS data. The
             system rejects submissions with significant data problems, but it does not
             prevent transmission of records with minor errors. HHAs receive
             confirmations when data transmissions are complete. A CMS contractor

             4 65 Fed. Reg. 41128 (July 3, 2000).
             5 Social Security Act, § 1864.
             6 Social Security Act, § 1891(c)(2)(A).
             7 42 CFR § 488.68(c).
             8 CMS, State Operations Manual, Pub. No. 100-07, Appendix B, Section G322, § 484.20(b). Standard:

             Accuracy of Encoded OASIS Data.
             9 HHAs must submit an OASIS for all Medicare and Medicaid patients; however, this study is limited to

             Medicare patients.


OEI-01-10-00460          Limited Oversight of Home Health Agency OASIS Data                                          2
             collects the data from all State agencies and computes the quality
             measures that CMS uses for monthly Outcome-Based Quality
             Improvement Reports and quarterly updates to its Home Health Compare
             Web site.
             CMS requirements for HHA OASIS submission. CMS requires that all
             HHAs encode and electronically submit OASIS data to State agencies
             within 30 calendar days after completing each patient assessment. 10, 11 It
             also requires HHAs to ensure that submitted data accurately reflect the
             condition of each patient at the time of assessment. 12
             The Deficit Reduction Act (DRA) of 2005 included a provision that HHAs
             submit required OASIS data. The DRA stipulates that an HHA’s failure to
             submit data will result in a 2-percent payment reduction to its home health
             market basket index increase for a year. 13, 14 CMS works with Medicare
             contractors to identify HHAs that have submitted claims but have not
             transmitted any OASIS data. The contractors notify any such HHAs in
             writing, and those HHAs have 30 days to dispute the reduced payment.
             During this time, an HHA disputing the reduction must submit
             documentation to confirm that it did transmit the data. If CMS upholds
             the decision, the contractor programs the payment system to apply a
             2-percent payment reduction to that HHA’s market basket index increase
             for the upcoming calendar year. 15
             As of January 1, 2010, CMS required HHAs to submit OASIS data as a
             Medicare condition for payment in addition to a CoP. Since that date, all
             HHAs must submit OASIS data before submitting a final claim for
             payment, and the payment codes on the final claim and OASIS submission
             must match. 16
             CMS OASIS requirements for States. CMS delegates overall responsibility
             for OASIS data collection and database management to State agencies. 17
             Although CMS regulations specify that State agencies are to establish and
             maintain OASIS databases, States in fact house CMS OASIS servers and


             10 42 CFR § 484.20.
             11 42 CFR § 484.55.
             12 42 CFR § 484.20(b).
             13 DRA of 2005, P. L. 109-171, § 5201(c)(2) (February 8, 2006) (adding Social Security Act §

             1895(b)(3)(B)(v)).
             14 The primary source of CMS’s market basket index is the Medicare cost reports supplied by providers to

             construct weights of major cost categories. The market basket reflects price inflation of these cost categories,
             and CMS uses the weights to update payments and cost limits of various CMS payment systems.
             15 CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 10, § 120.
             16 74 Fed. Reg. 58078, 58111 (Nov. 10, 2009) (revising 42 CFR §§ 484.210(e) and 484.250).
             17 42 CFR § 488.68.



OEI-01-10-00460          Limited Oversight of Home Health Agency OASIS Data                                                     3
             do not create their own databases. 18 Additional State agencies’
             responsibilities for operating the OASIS submission system include:
             •    analyzing and editing OASIS data, 19
             •    ensuring accuracy of OASIS data, 20
             •    restricting access to OASIS data, 21 and
             •    providing training and technical support for HHAs. 22
             CMS offers States agencies no guidance or details on their responsibilities
             for operating the OASIS submission system. Federal regulations do not
             include specific oversight responsibilities for CMS with respect to OASIS
             data. CMS oversees State agencies’ survey competence through annual
             reviews of States’ performance as measured by standards that CMS
             establishes. 23

             METHODOLOGY
             Scope
             This evaluation determined whether HHAs and States met Federal reporting
             requirements for OASIS data in 2009. It also determined the extent to which
             CMS oversaw the accuracy and completeness of OASIS data that HHAs
             submitted. We reviewed the extent to which CMS instituted the 2-percent
             payment reduction for HHAs that failed to submit data since the DRA
             provision went into effect in 2007. We analyzed HHAs that CMS penalized
             with a 2-percent payment reduction from 2007 to 2010 and documented any
             HHAs that CMS similarly penalized in multiple years. Finally, we
             calculated how many claims from 2009 had a corresponding OASIS data
             submission to a State agency. We limited our analysis to Medicare patients
             for this evaluation. This evaluation also did not determine the extent to
             which OASIS data submitted by HHAs accurately reflected patients’
             conditions at the time of assessments.
             Data Sources
             We used the following five data sources to analyze the OASIS data that
             HHAs submitted: (1) an online survey of State officials, (2) the National
             Claims History File (NCH), (3) OASIS data, (4) structured interviews with


             18 42 CFR § 488.68(a).
             19 42 CFR § 488.68(b).
             20 42 CFR § 488.68(c).
             21 42 CFR § 488.68(d).
             22 42 CFR § 488.68(e).
             23 CMS, Quality Assurance for the Medicare and Medicaid Programs: Fiscal Year 2011 Mission and Priority

             Document, pp. 21–22, revised October 15, 2010.


OEI-01-10-00460         Limited Oversight of Home Health Agency OASIS Data                                         4
             CMS staff, and (5) CMS data identifying HHAs that were penalized with the
             2-percent payment reduction between 2007 and 2010.
             Survey of States. We surveyed all 50 States and the District of Columbia
             (States) in May 2011 about their efforts to fulfill their oversight
             responsibilities for OASIS data. The survey focused on States’ policies and
             procedures for ensuring the accuracy and completeness of OASIS data that
             HHAs submitted. We sent the survey to the States’ OASIS Automation
             Coordinators as indentified on the CMS Web site. We had a 98-percent
             response rate; only the District of Columbia failed to respond.
             NCH and OASIS data. We obtained all 6,633,582 home health Part A claims
             from 2009 to determine the number of OASIS records that HHAs should
             have submitted. We linked those claims to the submitted OASIS records
             from the same period to determine which claims were missing required
             OASIS records in 2009.
             In addition, we reviewed the OASIS records to determine whether HHAs
             submitted the data within 30 days from the patient assessment date, as
             required.
             Interviews with CMS staff. We conducted structured interviews with CMS
             officials knowledgeable about the OASIS database and data validation
             procedures in the Center for Medicaid, CHIP, and Survey and Certification
             as well as from the Office of Clinical Standards and Quality. We also
             interviewed staff working in claims processing and asked how CMS
             implements the 2-percent payment reduction for failure to submit OASIS
             data.
             CMS data on HHAs penalized with the 2-percent payment reduction. We
             obtained a list from CMS of all HHAs that it penalized with the 2-percent
             payment reduction in 2007, 2008, 2009, and 2010 for failure to submit the
             required OASIS data. We analyzed the data to determine the trend of
             2-percent payment reductions and calculated how many HHAs CMS
             repeatedly penalized between 2007 and 2010.
             Limitations
             We did not analyze the completeness or accuracy of OASIS data submitted
             for individual patients.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-01-10-00460     Limited Oversight of Home Health Agency OASIS Data                5
                    FINDINGS
                    Home health agencies did not meet all Federal
                    reporting requirements for OASIS data
                    Our analysis found that HHAs were deficient in meeting two Federal
                    reporting requirements for OASIS data: that HHAs submit OASIS data for
                    all Medicare beneficiaries they serve and that they submit them within
                    30 days from the date of the patient assessment.
                    HHAs did not submit required OASIS data for 6 percent of claims
                    in 2009, which represented over $1 billion in Medicare payments
                    In 2009, 392,180 (6 percent) Medicare home health claims submitted by
                    HHAs did not have OASIS data for the same period. Although the missing
                    OASIS data account for over $1 billion in Medicare payments, submitting
                    OASIS data did not become a Medicare condition of payment until January
                    1, 2010. This means that for 2009 these claims were not paid in error.
                    Furthermore, in 2009, 85 percent of HHAs did not submit OASIS data for at
                    least one claim. Over half of those HHAs did not submit OASIS data for at
                    least 10 claims in 2009. (See Table 1.)

Table 1: Distribution of HHAs With Claims Missing OASIS Data, 2009

  Number of Claims per HHA             Number of HHAs Missing Claims            Percentage of HHAs


  1–5                                                          2,106                          23%

  6–10                                                         1,369                          15%

  11–20                                                        1,787                          19%

  21–40                                                        1,718                          19%

  41–100                                                       1,521                          16%

  101 or more                                                   773                            8%

     Total                                                     9,274                         100%

  Source: NCH and OASIS data, 2009.



                    From 2007 through 2010, CMS penalized only 199 HHAs by assessing the
                    2-percent payment reduction for not submitting OASIS data (see Table 2).
                    Among these HHAs, CMS penalized 13 for 2 of the 4 years reviewed, and
                    CMS penalized 1 for 3 consecutive years.




 OEI-01-10-00460               Limited Oversight of Home Health Agency OASIS Data                6
Table 2: HHAs CMS Penalized With a 2-Percent Payment Reduction, 2007–2010

                                                                                                      2009
                                                         2007                     2008                                        2010


 HHAs with 2-percent payment
                                                            41                      62                   36                        60
 reduction

 Total HHAs                                             9.404                   10,036              10,961                  11,488


 Percentage of total HHAs                                0.4%                     0.6%                0.3%                    0.5%


 Source: CMS 2-percent payment reduction data, 2007–2010.




                        The small number of HHAs penalized may be explained, in part, by CMS’s
                        failure to verify the completeness of OASIS data submitted. CMS officials
                        told us that it penalizes only those HHAs that failed to submit any OASIS
                        data for that year. An HHA needs to submit only one OASIS out of
                        potentially hundreds or thousands during the yearlong reporting period to
                        avoid the 2-percent payment penalty.
                        HHAs submitted 15 percent of OASIS datasets late
                        CMS does not penalize HHAs for late submissions. In 2009, HHAs
                        submitted 15 percent of OASIS datasets after the required 30-day timeframe
                        (see Table 3). 24 HHAs submitted almost a million OASIS (962,646) datasets
                        late; about a third of those (342,936) were more than 21 days late.

Table 3: Timeliness of HHA OASIS Submissions, 2009

                                                            Number of Submissions            Percentage of Total Submissions


 Within 30 days                                                             5,278,756                                         85%

 1 to 10 days late                                                            423,068                                             7%

 11 to 20 days late                                                           196,642                                             3%

 21 to 30 days late                                                           101,548                                             2%

 31 to 60 days late                                                           140,096                                             2%

 61 days or more late                                                         101,292                                             2%

    Total OASIS submissions                                                 6,241,402                                       100%*

 Source: NCH and OASIS data, 2009.

 *Does not equal 100 percent because of rounding.




                        24 Our analysis calculated the number of days between assessment date and OASIS submission. Our analysis
                        does not account for HHAs that may have resubmitted a previously rejected OASIS. The date of submission
                        reflects the most current rather than the first submission by the HHA.


  OEI-01-10-00460                  Limited Oversight of Home Health Agency OASIS Data                                              7
                        States met some, but not all, OASIS requirements
                        Our survey of States showed that they provided training and support for
                        OASIS and that most restricted access to the data. However, they conducted
                        limited data analysis or review of the data’s accuracy.
                        Some States provided training and technical support to HHAs, and
                        almost all restricted access to OASIS data
                        According to our survey results, 30 States provided OASIS training to
                        HHAs, and 45 States provided OASIS technical support to HHAs in the
                        12 months before our survey was sent in May 2011 (see Table 4).


Table 4: OASIS Training Topics Covered

                                                                           Number of States Covering This Topic


 Administering the OASIS dataset                                                                            22

 Transmitting OASIS data                                                                                    21

 Integrating the OASIS dataset into the HHAs’ recordkeeping                                                 17

 Ensuring privacy and confidentiality of the OASIS dataset                                                  14

 Using software to encode OASIS data                                                                        14

 Transitioning to the latest OASIS reporting requirements                                                    5

 Using regulatory resources and guidance                                                                     5

 Coding accurately                                                                                           3

 Source: OIG survey of States, 2011.




                        Also, according to our survey results, almost all States (49) had policies and
                        procedures to restrict access to OASIS data. Almost all kept the CMS
                        OASIS server in a secure room (47 States), protected the data with a
                        password (43), and followed encryption standards (43).
                        States conducted limited data analysis and review of the accuracy
                        of OASIS data
                        States’ analyses of OASIS data were generally limited to CMS’s automated
                        OASIS submission system. Forty-seven States reported that they did
                        nothing beyond CMS automated checks. Only three States reported that
                        they further validated data by checking for missing data and reconciling
                        duplicate patients. No States reported conducting analyses to ensure that the
                        OASIS data accurately reflected patients’ conditions at the time of
                        assessments.




  OEI-01-10-00460                      Limited Oversight of Home Health Agency OASIS Data                   8
             Furthermore, States took little action when they identified problems with
             OASIS reporting. States most commonly responded that they contacted
             HHAs when they identified problems with submissions or quality; however,
             three States indicated that they did not take any action. Few States
             responded that they took formal action to address OASIS data problems.
             For example, four States initiated a quality improvement plan for HHAs, and
             three States scheduled training for HHAs with OASIS reporting problems.
             Twenty-three States reported that they informed the State surveyors about
             HHAs with OASIS reporting problems. State surveyors have the authority
             to inspect HHAs for compliance with the Medicare CoPs and to cite
             deficiencies when HHAs do not meet those standards. However, Federal
             law requires State surveyors to inspect HHAs only once every 36 months.

             CMS did not ensure the accuracy or completeness of
             OASIS data
             Federal regulations do not specify oversight responsibilities for CMS with
             respect to OASIS data accuracy or completeness, and we found little
             evidence that CMS reviewed or validated OASIS data nationally. In
             addition, CMS did not review States’ protocols or procedures for collecting
             OASIS data from HHAs.
             CMS did not review OASIS data collected by States for accuracy or
             completeness
             CMS has direct access to OASIS data in the national database; however, our
             interviews with CMS staff revealed that CMS did not access, review, edit, or
             validate OASIS data nationally. In responses to our survey, only four States
             reported that CMS had requested information or reviewed OASIS data in the
             last 12 months; only two States reported that CMS requested a specific
             analysis of OASIS data in the 12 months before our survey was sent in May
             2011. Those requests addressed reviewing data transmissions and
             administering the 2-percent payment reduction.
             CMS did not validate States’ processes for monitoring submitted
             OASIS data
             Twenty States reported that CMS had never reviewed their States’ protocols
             or procedures for collecting OASIS data from HHAs. Twenty-four States
             could not say whether CMS had ever reviewed their OASIS data collection
             procedures. In our interviews, CMS staff told us that CMS provided no
             guidance to States on establishing procedures for submitting and validating
             OASIS data. CMS also stated that it did not specifically advise States to
             monitor the timeliness or validity of OASIS data submissions.




OEI-01-10-00460      Limited Oversight of Home Health Agency OASIS Data               9
             RECOMMENDATIONS
             OASIS data are the basis of Medicare reimbursement, and inaccurate or
             missing data could indicate potential Medicare fraud. If HHAs submit
             inaccurate information, they could be reimbursed for services they did not
             deliver to beneficiaries. OASIS errors also undermine the integrity of the
             home health quality measures, potentially affecting the Home Health
             Compare Web site on which beneficiaries and their families rely. In 2009,
             States and HHAs did not meet all Federal reporting requirements for OASIS
             data. HHAs did not submit OASIS data for 6 percent of claims representing
             over $1 billion in Medicare payments, and they submitted 15 percent of
             OASIS data late.
             Congress and CMS established a financial disincentive for HHAs’ failure to
             submit OASIS data; however, at the time of our review, CMS had not
             imposed the 2-percent payment reduction on the market basket index
             increase on all HHAs that did not submit all required OASIS datasets, which
             may have minimized its effect.
             Our review also found that most States did not perform additional data
             validation beyond the steps in the automated CMS OASIS submission
             system. No States had systems to ensure that submitted OASIS data
             accurately reflected the patients’ conditions at the time of assessments.
             In light of our findings, we recommend that CMS:
             Identify all HHAs that failed to submit OASIS data and apply the
             2-percent payment reduction to them
             Our analysis showed that many HHAs did not submit OASIS data according
             to Federal reporting requirements, yet CMS penalized only a small number
             with the 2-percent payment reduction. CMS considers HHAs to be in
             compliance if they submit at least one OASIS regardless of how many they
             completed.
             In 2010, CMS began requiring HHAs to submit OASIS data before the final
             claim as a condition for payment. When CMS fully implements this
             condition, the 2-percent penalty may become unnecessary. Until that time,
             CMS should raise the threshold for compliance to deter other HHAs from
             failing to comply with this important requirement.
             Establish and implement enforcement actions for HHAs that
             submit OASIS data after the 30-day deadline
             CMS does not penalize HHAs for submitting OASIS data late. In addition,
             HHAs lack an incentive to submit the OASIS before final claims, which they
             can submit as long as 3 to 4 weeks after the OASIS data are due. CMS
             should identify HHAs that are consistently or egregiously late in submitting

OEI-01-10-00460      Limited Oversight of Home Health Agency OASIS Data                  10
             data. CMS should also consider enforcement actions for HHAs that
             consistently miss the 30-day deadline.
             Develop clear guidelines that delineate expectations for States
             regarding timely and accurate OASIS data
             CMS holds States accountable for ensuring that HHAs submit timely and
             accurate OASIS data; however, it does not provide guidance on how States
             oversee this process. In addition to reviewing HHAs as part of the 3-year
             survey cycle, CMS should evaluate all States’ protocols and procedures for
             analyzing and editing OASIS data to find vulnerabilities and highlight best
             practices.
             CMS should also develop guidelines to ensure data accuracy. OASIS data
             have multiple uses, from reimbursement to quality measures, yet the current
             system uses self-reported data from HHAs with little to no validation. CMS
             should work with States to develop procedures that can detect both data
             input errors and willful misrepresentation of patients’ conditions at the time
             of assessments.


             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             In its comments on the draft report, CMS concurred with our first
             recommendation, but it did not concur with our second and third
             recommendations. CMS noted that it had implemented measures to
             improve oversight of States and HHAs and to address accuracy and
             completeness of the OASIS data process.
             CMS concurred with our first recommendation stating that it is pursuing a
             plan of action consistent with our recommendation. It is exploring
             methods to increase the compliance threshold for the 2-percent payment
             reduction. In addition, CMS is working to link the Medicare claims
             processing system and the State OASIS repositories to deny payment to
             HHAs that fail to submit OASIS data.
             CMS did not concur with our second recommendation. CMS stated that
             our findings failed to note that the error code for late submissions also
             included corrected OASIS data submissions. CMS also noted that the
             survey process looks at OASIS data submissions and targets late
             submissions. CMS added that it will revise the worksheet surveyors
             complete before starting the survey to emphasize the error for late OASIS
             submissions. We understand that CMS uses the survey process to review
             OASIS data submissions for timeliness and accuracy. However, CMS
             requires State agencies to survey HHAs only once every 3 years.


OEI-01-10-00460      Limited Oversight of Home Health Agency OASIS Data                11
             Although this survey cycle may be sufficient for other purposes, it could
             be inadequate to review timeliness of OASIS data. Rather than relying
             solely on the survey process, CMS could, for example, analyze data in the
             OASIS repository to identify HHAs that consistently submit OASIS data
             late.
             CMS also did not concur with our third recommendation. CMS stated that
             our report failed to identify the magnitude of costs associated with additional
             workload on State agencies to monitor error messages. It also noted that
             identifying willful misrepresentation of data is outside the scope of the
             States’ technical ability. We remain concerned that the current system relies
             on self-reported data from the HHAs without further validation. Finally,
             CMS stated that the findings do not support the significant investment that
             would be required to modify the survey process. We understand the
             constraints of the survey process and are aware of resources required to
             modify it. In our recommendation, we did not intend for CMS to modify the
             survey process. CMS should work with States outside the survey process
             and develop guidelines that States could follow to improve the quality and
             accuracy of OASIS data. Based on CMS’s comments, we clarified the
             wording of this recommendation.
             See the Appendix for the full text of CMS’s comments.




OEI-01-10-00460      Limited Oversight of Home Health Agency OASIS Data                12
                                 APPENDIX A
                                 Agency Comments


        . ~'iI:.\'l(~ .
        ,y                f{\f




    (    ~                       OEPARlMENT OF HEALTH & HUMAN SERVICES                                  Cent"rs for Medicare & Medicaid Services


        <5~                                                                                             Administrator
                                                                                                        Washington, DC 20201




                                 DATE: 	       OEC 1 4 2011
                                 TO: 	         Daniel R. Levinson 

                                               InspectoI General 


                                 FROM: 	       MaJilyn ta\eimer 

                                               Acting Admfuistrator 


                                 SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Limited Oversight of
                                            Home Health Agency OASIS Data (OEI-OI-1O-00460)


                                 Thank you for the opportunity to review and comment on the subject OIG draft report.
                                 The Centers for Medicare & Medicaid Services (CMS) appreciates the contributions and
                                 valuable input by the OIG in reviewing the oversight ofCMS activities to assess the
                                 collection of OASIS data. The purpose of this report was to determine the--(l) Extent to
                                 which Medicare home health agencies (HHAs) meet Federal reporting requirements for
                                 the Outcome and Assessment Information Set (OASIS) data; (2) Extent to which States
                                 meet Federal reporting requirements for OASIS data; and (3) Extent to which CMS
                                 oversees the accuracy and completeness of OASIS data submitted by HHAs.

                                 Since the implementation of OASIS in 1999, CMS has implemented a number of
                                 measures to improve the oversight of States and HHAs, and some of those measures also
                                 address accuracy and completeness ofthe OASIS data process. For instance-­

                                     • 	 Beginning January 1,2010, HHAs were required to submit an OASIS as a
                                         condition for payment. To ensure compliance with OASIS data submission as a
                                         condition of payment, HHAs must submit OASIS start of care and reCertification
                                         assessment data to the State prior to submitting final Medicare claims.
                                         Furthermore, HHAs must ensure that the Health Insurance Prospective Payment
                                         System (HIPPS) code on the final claim matches that received on the OASIS
                                         validation report;

                                     • 	 We instructed surveyors to address late OASIS submissions as part of the pre­
                                         survey process. The HHA surveyor worksheet targets HHAs with a 20-percent
                                         late submission rate for investigation;

                                     • 	 Currently, the transmission of assessment data to the OASIS Submission System
                                         and transmission ofHIPPS codes on claims to Medicare contractors are entirely
                                         separate processes. The Fiscal Intermediary Shared System (FISS) does not have
                                         access to the OASIS Submission System. The payment group determined from




OEI-01-10-00460                              Limited Oversight of Home Health Agency OASIS Data                                                    13
OEI-01-10-00460   Limited Oversight of Home Health Agency OASIS Data   14
OEI-01-10-00460   Limited Oversight of Home Health Agency OASIS Data   15
OEI-01-10-00460   Limited Oversight of Home Health Agency OASIS Data   16
OEI-01-10-00460   Limited Oversight of Home Health Agency OASIS Data   17
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Joyce Greenleaf, Regional
             Inspector General for Evaluation and Inspections in the Boston regional
             office, and Russell Hereford, Deputy Regional Inspector General.
             Danielle Fletcher served as the team leader for this study. Other principal
             Office of Evaluation and Inspections staff from the Boston regional office
             who contributed to the report include Tim Chettiath and Kim Yates; central
             office staff who contributed includes Sandy Khoury.




OEI-01-10-00460      Limited Oversight of Home Health Agency OASIS Data              18
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
